OFFICE OF INSPECTOR GENERAL

 DEPARTMENT OF VETERANS AFFAIRS




   SEMIANNUAL REPORT TO CONGRESS

  APRIL 1, 2008 - SEPTEMBER 30, 2008

                               Message from the Inspector General




This Semiannual Report to Congress focuses on the accomplishments of
the VA Ofﬁce of Inspector General (OIG) for the reporting period from
April 1, 2008, through September 30, 2008. Issued in accordance with
the Inspector General Act of 1978, as amended, it presents results based
on OIG strategic goals, which cover the areas of health care delivery,
beneﬁts processing, ﬁnancial management, procurement practices, and
information management.

During this reporting period, OIG issued 58 reports on VA programs and
operations. We recommended systemic improvements and efﬁciencies
in quality of care, accuracy of beneﬁts, ﬁnancial management, economy
in procurement, and information security. OIG audits, investigations,
and other reviews identiﬁed over $215 million in monetary beneﬁts, for
a return of $5 for every dollar expended on OIG oversight. Our criminal
investigators have closed 547 investigations and made 233 arrests. OIG investigative work also
resulted in 368 administrative sanctions.

Reviews by the Ofﬁce of Healthcare Inspections (OHI) of research studies at Veterans Health
Administration (VHA) medical facilities showed persistent deﬁciencies in oversight provided by
Institutional Review Boards, including documentation irregularities and violations of human subjects
protections in the areas of informed consent and adverse event reporting. One review was the subject
of a congressional hearing where OHI staff testiﬁed on the lack of adequate and timely notiﬁcation of
potentially harmful psychiatric effects of a smoking cessation drug in a study involving patients with
Post Traumatic Stress Disorder. Another review conducted by the Ofﬁce of Audit of VHA’s surgical and
anesthesiology clinical sharing agreements identiﬁed $59 million in funds that could be put to better
use.

On the beneﬁts side, an audit on the impact of additional resources at the Veterans Beneﬁts
Administration (VBA) showed that a large inﬂux of new employees resulted in a short-term decrease
in VBA’s overall productivity in claims processing; as job proﬁciency increases, a substantial decrease
in the claims backlog by 2011 is expected. Another audit found that a high percentage of beneﬁts
claims from seriously disabled veterans of Operations Enduring Freedom and Iraqi Freedom were not
processed within VBA’s 30-day goal and that outreach efforts to service members and veterans needed
improvement.

The Ofﬁce of Contract Review (OCR) conducted preaward and postaward reviews speciﬁcally designed
to improve VA’s procurement process by protecting the interest of the Government and identifying and
resolving contractor overcharges. OCR issued 48 reports that resulted in savings and dollar recoveries
of $62 million.

OIG appreciates the ongoing support we receive from the Secretary, the Deputy Secretary, and senior
management. We look forward to working with VA and Congress to make VA as effective as possible
in caring for our Nation’s veterans.




GEORGE J. OPFER
Inspector General
Semiannual Report to Congress   April 1, 2008–September 30, 2008





2

April 1, 2008–September 30, 2008                                              VA Ofﬁce of Inspector General



                                   TABLE OF CONTENTS


Message from the Inspector General .................................................................... 1


Statistical Highlights ............................................................................................ 5


VA and OIG Mission, Organization, and Resources ............................................... 6


Health Care Delivery............................................................................................. 7


Beneﬁts Processing ............................................................................................ 11


Financial Management........................................................................................ 13


Procurement Practices ....................................................................................... 14


Information Management................................................................................... 17


Other Signiﬁcant OIG Activities .......................................................................... 18


Appendix A–OIG Reports.................................................................................... 21


Appendix B—Status Of OIG Reports Unimplemented For Over 1 Year................. 26


Appendix C—Inspector General Act Reporting Requirements ............................. 28


Appendix D–Government Contractor Audit Findings ........................................... 30





                                                                                                                   3
Semiannual Report to Congress   April 1, 2008–September 30, 2008





4

April 1, 2008–September 30, 2008 	                                              VA Ofﬁce of Inspector General



                                      Statistical Highlights
                                                                                               Reporting Period              FY 2008
 DOLLAR IMPACT ($$$ in Millions)
        Better Use of Funds ................................................................................... $60.6         $89.6   

        Fines, Penalties, Restitutions, and Civil Judgments ...........................................$5.3                   $13.2   

        Fugitive Felon Program ............................................................................ $111.7           $232.4   

        Savings and Cost Avoidance ...................................................................... $17.1               $30.5   

        Questioned Costs ...................................................................................... $16.6         $18.3   

        OIG Dollar Recoveries ..................................................................................$4.5           $7.8   

        Contract Review Savings and Dollar Recoveries ............................................. $62.0                    $108.1   

 RETURN ON INVESTMENT
        Dollar   Impact   ($215.8)/Cost of OIG Operations ($40.2) .................................... 5:1 

        Dollar   Impact   ($391.8)/Cost of OIG Operations ($80.5) .................................................... 5:1

        Dollar   Impact   ($62.0)/Cost of Contract Review Operations ($1.7) ..................... 36:1

        Dollar   Impact   ($108.1)/Cost of Contract Review Operations ($3.5) ....................................31:1

 OTHER IMPACT
        Arrests* ......................................................................................................233     510

        Indictments .................................................................................................120       249

        Criminal Complaints ...................................................................................... 70          138

        Convictions .................................................................................................156       291

        Pretrial Diversions ......................................................................................... 25        44

        Fugitive Felon Apprehensions by Other Agencies Using VA OIG Data .................... 25                                48

        Administrative Sanctions ...............................................................................368            652

 ACTIVITIES
 Reports Issued
      CAP Reviews................................................................................................. 18           46 **

      Healthcare Inspections ................................................................................... 27             56        

      Joint Reviews.................................................................................................. 1          1

      Audits............................................................................................................ 9      19 **

      Administrative Investigations ............................................................................ 3               5

      Contract Reviews .......................................................................................... 48            85 **

 Investigative Cases
      Opened.......................................................................................................528        1008

      Closed ........................................................................................................547      1048 

 Healthcare Inspections Activities
       Clinical Consultations ....................................................................................... 1          2            

       Administrative Case Closures .......................................................................... 12               15 

 Hotline Activities
        Cases Opened..............................................................................................513          909

        Cases Closed ...............................................................................................438        874


    *	 Includes the apprehension of 45 and 128 fugitive felons by OIG for this period and FY 2008, 

       respectively. 

   ** Corrected ﬁgures




                                                                                                                      5
Semiannual Report to Congress                               April 1, 2008–September 30, 2008



                VA and OIG Mission, Organization,
                         and Resources
The Department of Veterans Affairs
The Department’s mission is to serve America’s veterans and their families with dignity
and compassion and to be their principal advocate in ensuring that they receive the care,
support, and recognition earned in service to the Nation. The VA motto comes from
Abraham Lincoln’s second inaugural address, given March 4, 1865, “to care for him who
shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the
second largest Federal employer. For ﬁscal year (FY) 2008, VA had a $90.3 billion budget
and almost 230,000 employees served an estimated 23.5 million living veterans. To serve
the Nation’s veterans, VA maintains facilities in every state, the District of Columbia, the
Commonwealth of Puerto Rico, Guam, and the Republic of the Philippines.

VA has three administrations that serve veterans:

    • Veterans Health Administration (VHA) provides health care.
    • Veterans Beneﬁts Administration (VBA) provides income and readjustment beneﬁts.
    • National Cemetery Administration provides interment and memorial beneﬁts.
For more information, please visit the VA Internet home page at www.va.gov.

VA Ofﬁce of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1,
1978, to consolidate audits and investigations into a cohesive, independent organization.
In October 1978, the Inspector General Act, Public Law (P.L.) 95-452, was enacted,
establishing a statutory Inspector General (IG) in VA. It states that the IG is responsible
for: (1) conducting and supervising audits and investigations; (2) recommending policies
designed to promote economy and efﬁciency in the administration of, and to prevent
and detect criminal activity, waste, abuse, and mismanagement in VA programs and
operations; and (3) keeping the Secretary and Congress fully informed about problems
and deﬁciencies in VA programs and operations and the need for corrective action. The IG
has authority to inquire into all VA programs and activities as well as the related activities
of persons or parties performing under grants, contracts, or other agreements. Inherent
in every OIG effort are the principles of quality management (QM) and a desire to improve
the way VA operates by helping it become more customer-driven and results-oriented.

OIG, with 488 employees, is organized into three line elements: the Ofﬁces of
Investigations, Audit, and Healthcare Inspections, plus a contract review ofﬁce and
a support element. FY 2008 funding for OIG operations provides $80.5 million from
appropriations. The Ofﬁce of Contract Review, with 25 employees, receives $3.5 million
through a reimbursable agreement with VA for contract review services including preaward
and postaward contract reviews and other pricing reviews of Federal Supply Schedule
(FSS) contracts. In addition to the Washington, DC, headquarters, OIG has ﬁeld ofﬁces
located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting
VA programs and the opportunities for improvement. In doing so, OIG staff strives to be
leaders and innovators, and to perform their duties fairly, honestly, and with the highest
professional integrity. For more information, please visit the OIG Internet home page at
www.va.gov/oig.




6
April 1, 2008–September 30, 2008                               VA Ofﬁce of Inspector General



                            Health Care Delivery

The health care that VHA provides veterans is consistently ranked among the best in the
Nation, whether those veterans are recently returned from Operation Enduring Freedom/
Operation Iraqi Freedom (OEF/OIF) or are veterans of other periods of service with different
patterns of health care needs. OIG oversight helps VHA maintain a fully functional program
that ensures high-quality patient care and safety, and safeguards against the occurrence of
adverse events.

OFFICE OF HEALTHCARE INSPECTIONS
The OIG Ofﬁce of Healthcare Inspections (OHI) focuses on quality of care issues in VHA
and assesses VHA services. During this reporting period, OHI published 18 cyclical
Combined Assessment Program reviews, and 27 hotline reports and national reviews to
evaluate quality of care issues in several VHA medical facilities.
Adverse Psychiatric Effects of Chantix® Inadequately Explained to PTSD
Patients
Ranking Member Steve Buyer of the House Veterans’ Affairs Committee requested an
investigation into the circumstances surrounding the use of the smoking cessation
medication varenicline (Chantix®) in a research study sponsored by VHA. A major issue
was the facility’s response to notices sent out by the Food and Drug Administration (FDA)
related to a possible association between the medication and changes in mood, behavior,
or suicidal thoughts. The investigation found that although the VA Medical Center (VAMC)
in Washington, DC, responded appropriately to FDA communications concerning Chantix®
in notifying providers of these newly deﬁned risks, the Research Service did not ensure
that Post Traumatic Stress Disorder (PTSD) patients enrolled in a smoking cessation study
received adequate and timely notice of the risks.
Informed Consent, Other Deﬁciencies Identiﬁed in Research Projects in
Little Rock
OIG substantiated allegations related to documentation irregularities and human subjects
protection violations in research projects conducted at the Central Arkansas Veterans
Healthcare System. Researchers obtained samples for certain tests on subjects without
their consent, could not provide informed consent documents for all subjects enrolled
in the protocols, and did not appropriately obtain witness signatures for demented
patients enrolled in research protocols. In addition, four protocols were missing other
key information and data related to the subjects recruited in the study. OIG discovered
discrepancies in the number of subjects reported as being recruited to the Institutional
Review Board (IRB) and to the Ofﬁce of Research and Development, as well as the failure
of principal investigators to obtain the requisite skills, training, and experience to conduct
the research. The IRB was aware of many of these deﬁciencies well before this inspection
and failed to suspend or terminate the researchers or research projects involved.
OIG Review Calls for Active Leadership in PTSD Program
Chairman Bob Filner of the House Veterans’ Affairs Committee requested that OIG review
allegations regarding PTSD program issues at the VA San Diego Healthcare System
(VASDHS). OIG concluded that the substantial presence of a clinician-administrator is
needed to provide overall coordination and leadership for PTSD treatment at all VASDHS
sites. Additionally, considerable efforts are needed to improve database management
used to track patients with PTSD and ensure that data-driven decisions can be made
regarding treatment options and resource requirements.
Systematic Improvement Needed for Venous Thromboembolism
Prevention
OIG evaluated the extent to which VHA clinicians implement evidence-based
recommendations to prevent venous thromboembolism (VTE) in hospitalized patients.
VTE includes deep vein thrombosis, a blood clot in the deep veins of the leg or pelvis, and
pulmonary embolism, a blood clot propagated to the lungs. Sixty-three percent of at-risk
patients received recommended interventions, a rate similar to other non-VA settings.




                                                                                             7
Semiannual Report to Congress                              April 1, 2008–September 30, 2008


These ﬁndings clarify the extent to which systematic improvement is needed and can
serve to inform the design of prevention programs.
Signiﬁcant Disabilities Continue for Veterans Following Completion of
Traumatic Brain Injury Rehabilitation
At the request of the Chairman of the Senate Committee on Veterans’ Affairs, Senator
Daniel Akaka, OIG conducted a follow-up assessment to determine the extent to which
VHA maintains involvement with a previously-studied group of service members and
veterans who had received inpatient rehabilitative care in VA facilities for traumatic brain
injury (TBI) sustained during or after tours of duty in Iraq or Afghanistan. OHI clinical
staff reviewed data on VA health care utilization from electronic medical records and
interviewed willing patients and family members. Three years after completion of initial
inpatient rehabilitation for TBI, many patients continue to have signiﬁcant disabilities.
While case management has improved, long-term case management is not uniformly
provided for these patients, and signiﬁcant needs remain unmet. OIG will continue to
monitor VHA’s progress toward achieving consistent delivery of case management services
for this select group of injured veterans.
Scopes of Practice for Unlicensed Research Physicians Not in Compliance
with VHA Policy
OIG initiated a review to determine whether research activities performed by unlicensed
physicians employed in VHA fell outside their scopes of practice. OHI did not ﬁnd
evidence that unlicensed physicians, with the exception of one, were performing activities
that would constitute the practice of medicine. However, the majority of the scopes of
practice were not in full compliance with VHA’s 2003 guidance, and there was not uniform
documentation of educational veriﬁcation. OHI recommended the Under Secretary for
Health ensure the scopes of practice for all research personnel engaged in research
activities do not permit activities requiring licensure, and that the credentialing of
unlicensed personnel engaged in research involving human subjects complies with VHA
policy.
Quality Management Programs Generally Effective in VHA Facilities
OHI completed an evaluation of 46 VHA medical facilities’ QM programs during FY 2007
to determine whether VHA facilities had comprehensive, effective QM programs designed
to monitor patient care activities and coordinate improvement efforts. In addition, the
evaluation investigated whether VHA facility senior managers actively supported QM
efforts and appropriately responded to QM results. The evaluation noted two facilities
with signiﬁcant QM program weaknesses. OIG recommended that VHA continue to
strengthen QM programs by improving compliance in adverse event disclosure, utilization
management, National Patient Safety Goals, patient ﬂow, and action item implementation
and evaluation.
Review Reveals Compliance Deﬁciencies with Out-of-Operating Room
Airway Management Directive
A national health care review was conducted to assess compliance with VHA Directive
2005-031, Out-of-Operating Room Airway Management. The directive addresses
appropriate competencies of practitioners who perform urgent and emergent airway
management outside of VHA operating rooms and the use of devices to conﬁrm successful
tube placement. Despite the fact that the National Center for Patient Safety provided all
facilities a sample policy that met Directive requirements, facilities deleted elements or
made changes that altered the intent of the Directive as developed locally. Only three
facilities complied with all requirements of the Directive. OIG recommended that VHA
require facilities to apply for a waiver from the Directive if they do not perform out-of­
operating room airway management, maintain policies that comply with all elements
of VHA Directive 2005-031, and collect provider-speciﬁc and aggregate data for airway
management and discuss results at their designated oversight committee.
Funding Irregularities Found at Temple, TX, Research Facility
OIG received allegations of ﬁscal, scientiﬁc, and managerial wrongdoings in the operations
of the Central Texas Veterans Health Care System Brain Imaging and Recovery Laboratory
(BIRL). We partially substantiated the allegation of mismanagement of VA funds. There



8
April 1, 2008–September 30, 2008                             VA Ofﬁce of Inspector General


was not sufﬁcient BIRL research to support expenditures, and a consultant never signed
the document purporting to be a contract. Due in part to this omission, the Research
& Development Committee did not appropriately review expenditures made from
appropriated funds for a principal investigator’s project. OIG recommended that the
Under Secretary for Health ensure that all BIRL expenditures were paid out of the correct
appropriations, along with four other recommendations to the Veterans Integrated System
Network (VISN) Director related to research and contract issues.
Report Finds Radiology Peer Review Process Ineffective
An OIG inspection was conducted at a VAMC to determine the validity of allegations
regarding radiology issues. A complainant alleged that a radiologist had extremely high
misread rates, causing life-shortening and life-threatening outcomes for patients. The
complainant further alleged that a new process for monitoring radiology productivity
does not contain quality standards but focuses on speed, leading to increased misread
rates. The complainant alleged that the Relative Value Units (RVU) process is now the
basis for performance pay and that some radiologists are not spending enough time
reading ﬁlms or are not reviewing all images. OIG did not substantiate that high misread
rates affected patient outcomes, but concluded that the current radiology department
peer review process was ineffective. OIG recommended that the VAMC request a VA
Central Ofﬁce radiology consultative visit to explain the RVU process and to assess other
identiﬁed administrative issues, and that peer reviews be completed by another VAMC until
administrative issues in the radiology department were resolved.

OFFICE OF AUDIT
OIG audits of VA programs focus on the effectiveness of health care delivery for veterans.
These audits identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.
Inaccurate Patient Waiting Times Remain a Problem for VHA
OIG reviewed allegations that the leadership of VISN 3 was manipulating procedures to
misrepresent patient waiting times. OIG did not substantiate a willful manipulation of
procedures with the intent to misrepresent waiting times. However, scheduling procedures
were not followed, which affected the reliability of VISN 3 reported waiting times and
caused the electronic waiting lists (EWLs) to be understated. OIG recommended that
the Under Secretary for Health establish procedures to routinely test the accuracy of
reported waiting times and the completeness of EWLs, and take corrective action when
testing shows questionable differences between the desired dates of care shown in medical
records and those documented in the scheduling system. OIG’s ﬁndings indicate VHA has
still not implemented ﬁndings from earlier audits in 2005 and 2007 showing problems with
outpatient scheduling, EWLs, and reported waiting times.
VHA Oversight of Nonproﬁt Research and Education Corporations Needs
Improvement
An audit was conducted to determine the effectiveness of VHA controls over the
administration of funds used for research and education activities at Nonproﬁt Research
and Education Corporations (NPCs). OIG auditors determined the NPCs did not implement
adequate controls to properly manage funds, safeguard equipment, and guard against
conﬂicts of interest. Recommendations were provided to the Under Secretary for Health to
deﬁne, develop, and implement oversight authority and procedures; revise VHA Handbook
1200.17; and strengthen procedures for following up on recommendations.

OFFICE OF INVESTIGATIONS
The OIG Ofﬁce of Investigations (OI) conducts criminal investigations into allegations of
patient abuse, drug diversion, theft of VA pharmaceuticals or medical equipment, false
claims for health care beneﬁts, and other frauds relating to the delivery of health care to
millions of veterans. In the area of health care delivery, OIG opened 145 cases, made 90
arrests, and obtained $1.8 million in ﬁnes, restitution, penalties, and civil judgments as
well as savings, efﬁciencies, cost avoidance, and recoveries.




                                                                                              9
Semiannual Report to Congress                              April 1, 2008–September 30, 2008


Former Atlanta Nurse Sentenced for Drug Diversion
A former nurse at the Atlanta VAMC was sentenced to 4 years’ probation and a $1,000 ﬁne
after having previously pled guilty to a criminal information charging her with fraudulently
acquiring controlled substances. An OIG investigation determined that on numerous
occasions the nurse diverted pain medication from VA patients for her personal use. As
part of the plea agreement, the nurse surrendered her nursing license for 5 years.
Veteran Indicted for Identity Theft
A veteran was indicted on multiple counts of forgery, theft, and identity theft after an OIG
investigation determined that he assumed the identity of another veteran and fraudulently
received treatment and medications from VA valued at $161,036. The defendant
confessed to the details of the scheme and to also diverting, forging, and negotiating four
VA beneﬁt checks totaling $3,661, which were intended for the true veteran.
Mountain Home, TN, VAMC Nurse Pleads Guilty to Drug Diversion
A Mountain Home, TN, VAMC nurse pled guilty to possession of controlled substances after
an OIG and VA Police investigation revealed that the nurse, who was assigned to a nursing
home care unit, diverted for her own use pain medication prescribed to patients. Some
of the diversion included draining liquid hydromorphone from the IV bags of terminally ill
patients.
Non-Veteran Pleads Guilty to Theft in “Stolen Valor” Case
A non-veteran pled guilty to theft of Government funds after having fraudulently received
VA pension and health care beneﬁts. The defendant claimed to have been a U.S. Marine
for 12 years and to have served in Vietnam. An OIG investigation determined the
defendant was incarcerated in three different state prisons, under a different name, during
the time he was allegedly a Marine. The loss to VA is approximately $45,000 in pension
beneﬁts and approximately $200,000 in health care beneﬁts.
Former Asheville, NC, VAMC Nurse Arrested for Drug Diversion
A former Asheville, NC, VAMC nurse was arrested for embezzlement of a controlled
substance and willful misrepresentation to obtain a controlled substance. A joint OIG and
local drug task force investigation determined that the nurse diverted Oxycodone intended
for patients under her care and consumed the diverted narcotics during working hours.
She also obtained Hydrocodone by simultaneously requesting and receiving multiple
prescriptions by withholding information from the prescribing physicians.
Veteran Arrested for Passing Counterfeit Checks at San Diego VAMC
A veteran and two other defendants were sentenced to 48 months’, 32 months’, and
16 months’ incarceration, respectively, for the counterfeiting and passing of fraudulent
checks at the San Diego VAMC Veterans Canteen Service (VCS). The second and third
defendants were also ordered to pay $2,591 in restitution to VA. During the course of the
investigation OIG agents, regional fraud task force ofﬁcers, and a probation ofﬁcer entered
the subject’s residence and discovered a counterfeit check-making plant. The veteran,
who had a previous history of check fraud, possessed numerous identiﬁers of other
persons, blank check stock, and banking information. During the search of the residence,
agents also found methamphetamine, weapons, cash, and various forms of counterfeiting
equipment.




10
April 1, 2008–September 30, 2008                              VA Ofﬁce of Inspector General



                             Beneﬁts Processing
Many veterans, especially returning OEF/OIF veterans, need a variety of beneﬁts and
services in order to transition to civilian life. OIG works to improve the delivery of these
beneﬁts and services by identifying opportunities to improve the quality, timeliness, and
accuracy of beneﬁts processing. In addition, OIG reduces criminal activity in the delivery
of beneﬁts through proactive and targeted audit and investigative efforts.

OFFICE OF AUDIT
OIG performs audits of veterans’ beneﬁts programs focusing on the effectiveness
of beneﬁts delivery to veterans, dependents, and survivors. These audits identify
opportunities for enhancing the management of program operations and provide VA with
constructive recommendations to improve the delivery of beneﬁts.
Deﬁciencies Noted in Transition Assistance Provided to OEF/OIF Service
Members and Veterans
An OIG audit of transition assistance provided by the VBA found signiﬁcant deﬁciencies
in claims processing goals and outreach efforts. VA Regional Ofﬁces did not process
76 percent of compensation claims of seriously disabled veterans of OEF/OIF within VBA’s
30-day claims processing goal. To improve outreach, the Department of Defense (DoD)
and VBA needed to monitor and increase attendance at Transition Assistance Program
brieﬁngs, and strengthen procedures for processing initial outreach letters. The OIG made
eight recommendations to address the transition control deﬁciencies identiﬁed.
VBA Hiring Temporarily Slows Productivity, Long-term Gains Anticipated
OIG conducted an audit to determine the impact of VBA’s hiring initiative to increase its
claims processing workforce by 30 percent to reduce the claims backlog. OIG concluded
that in the short term, the large inﬂux of new employees resulted in a decrease in VBA’s
overall productivity. However, the long-term expectation is that the backlog will be
substantially diminished by 2011 as job proﬁciency for new employees increases. OIG
recommended that VBA redeﬁne its rating claims backlog in a more meaningful method to
determine if it is meeting processing performance targets.

OFFICE OF INVESTIGATIONS
VA administers a number of ﬁnancial beneﬁts programs for eligible veterans and certain
family members. Among the beneﬁts are VA guaranteed home loans, education,
insurance, and monetary beneﬁts provided by the Compensation and Pension (C&P)
Service. With respect to VA guaranteed loans, OI conducts investigations of loan
origination fraud, equity skimming, and criminal conduct related to management of
foreclosed loans or properties.

C&P investigations routinely concentrate on payments being made to ineligible individuals.
For example, a beneﬁciary may feign a medical disability to deliberately defraud the VA
compensation program. The VA pension program, which is based on the beneﬁciary’s
income, is often defrauded by individuals who fail to report income in order to stay below
the eligibility threshold for these beneﬁts. An ongoing proactive income veriﬁcation
match identiﬁes possible fraud in the pension program. OI also conducts an ongoing
death match project that identiﬁes deceased beneﬁciaries of the VA C&P program whose
beneﬁts continue because VA was not notiﬁed of the death. In this reporting period,
the death match project recovered $3.6 million, with another $1.3 million in anticipated
recoveries. Generally, family members of the deceased are responsible for this type of
fraud. In the area of beneﬁts processing, OIG opened 316 cases, made 92 arrests, and
had $22.5 million in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies, cost avoidance, and recoveries.




                                                                                           11
Semiannual Report to Congress                              April 1, 2008–September 30, 2008


Veteran Indicted for Compensation Fraud
A veteran was indicted in two different judicial districts for wire fraud and making false
statements. An OIG investigation revealed that between April 1976 and October 2007
the veteran feigned symptoms and exaggerated his injuries to include paraplegia and
complete loss of lower bodily functions requiring daily aid and attendance, constant
medical care, clothing reimbursement, and adaptive housing and transportation. The
investigation determined that during the 31-year period the veteran owned an excavation
company and operated heavy construction equipment, owned and operated a Federal
Aviation Administration-approved repair station, and was the chief inspector and airframe/
power plant mechanic. The veteran also obtained a private pilot’s license and was a
deputy sheriff in a local sheriff ofﬁce’s maritime division. The loss to VA is approximately
$1,551,000.
Widow Pleads Guilty to Theft
A widow was charged with theft of Government funds after a VA OIG investigation
revealed that she fraudulently received Dependency and Indemnity Compensation beneﬁts
after her remarriage in 1994. The loss to VA is $151,796.
Veteran Pleads Guilty to Theft of VA Beneﬁts
A veteran pled guilty to making false statements, theft, and mail fraud after an OIG
investigation determined that he had been fraudulently receiving VA pension beneﬁts
since 1983. The investigation further determined that the veteran lied on a VA Claim for
Pension Beneﬁts form, earned income through the purchase and delivery of livestock,
and had rental income from property. Also, the investigation revealed that the veteran
concealed large sums of cash and a search warrant executed at a local bank uncovered
$110,000 in a safe deposit box. The veteran admitted that he hid his earnings and other
assets to avoid detection by VA. The loss to VA is approximately $218,000.
Veteran Indicted in “Stolen Valor” Case
A veteran was indicted on theft charges after an OIG investigation revealed that he
provided false information to the Portland VAMC and to the VA Regional Ofﬁce in order
to fraudulently receive VA beneﬁts. The information included an altered discharge
document in support of his PTSD claim, fraudulently claiming 21/2 years’ service in Vietnam
and combat stressors he did not experience. The veteran obtained the narrative for
the stressors by plagiarizing war stories written by other veterans. The loss to VA is
approximately $193,000.
Son Sentenced for Theft of VA Funds
The son of a VA beneﬁciary was sentenced to 24 months’ incarceration, 36 months’
probation, and ordered to pay $172,622 in restitution after having previously pled guilty
to theft of Government property. From March 1996 through November 2005, the son
converted for his own use his mother’s VA beneﬁts that were issued after her death.
Personal Care Home Owner Sentenced for Neglect of Veterans
A Jackson, MS, personal care home owner was sentenced to 10 years’ incarceration,
5 years suspended, and 5 years’ probation after pleading guilty to the exploitation of a
vulnerable adult. A joint OIG and State investigation revealed that the owner failed to
provide adequate living conditions and medical care for veterans who were residents
at the care home. In addition, the owner and his wife negotiated veterans’ VA beneﬁt
checks without authorization. The home was subsequently closed and all of the residents,
including the veterans, were relocated to other care homes in the local area.
Son Sentenced for Fiduciary Fraud
The son of an incompetent veteran, who was appointed as his father’s ﬁduciary, was
sentenced to 30 months’ incarceration, 3 years’ probation, and was ordered to pay
restitution of $272,802 to his father’s estate. An OIG investigation determined that the
son used his father’s VA funds for his own personal use.




12
April 1, 2008–September 30, 2008                              VA Ofﬁce of Inspector General


                          Financial Management

VA needs to provide all its components with accurate, reliable, and timely information for
sound oversight and decision making. Since 1999, VA has achieved unqualiﬁed (“clean”)
audit opinions on its consolidated ﬁnancial statements (CFS). OIG audits and reviews
identify areas in which VA can improve ﬁnancial management controls, data validity, and
debt management.

OFFICE OF AUDIT
OIG performs audits of ﬁnancial management operations, focusing on adequacy of
VA ﬁnancial management systems in providing managers information needed to efﬁciently
and effectively manage and safeguard VA assets and resources. OIG oversight work
satisﬁes the Chief Financial Ofﬁcer Act of 1990, P.L. 101-576, audit requirements for
Federal ﬁnancial statements and provides timely, independent, and constructive reviews of
ﬁnancial information, programs, and activities. OIG reports provide VA with constructive
recommendations needed to improve ﬁnancial management and reporting throughout
the Department.
Unapproved and Improper Use of Expired VHA Funds Is Widespread
OIG conducted an audit to assess whether VHA obtained proper approval to use expired
funds, as well as whether contract changes were within the scope of the original contracts.
The audit identiﬁed unapproved and improper use of expired funds in at least 80 percent
of VISN contracting activities nationwide amounting to a total of $16.4 million during FY
2007. This widespread improper use of expired funds occurred primarily because of a lack
of policy clarity and other weaknesses in internal controls. Similar ﬁndings were reported
in a May 2007 report of the Boston Healthcare System.

OFFICE OF INVESTIGATIONS
OIG conducts criminal and administrative investigations related to allegations of serious
misconduct with regard to VA ﬁnancial management. These investigations often indicate
weaknesses and ﬂaws in VA ﬁnancial management.
Former Tampa Canteen Service Supervisor Sentenced for Theft
A former Tampa VCS supervisor, who previously pled guilty to theft of Government
funds, was sentenced to 6 months’ incarceration, 3 years’ probation, and ordered to pay
restitution of $30,000 to VA. In February 2006, the VCS initiated an audit after a year­
end inventory resulted in a retail accountability shortage. The audit and subsequent OIG
investigation revealed that the supervisor manipulated voids and merchandise refunds for
personal gain.
Arizona VHA Employee Charged with Fraud and Theft
A criminal information was ﬁled, charging a former Arizona VHA employee with wire fraud,
mail fraud, and theft of Government funds. An initial VA audit indicated that the employee
was “price splitting” on charges made with her VA purchase card. A more detailed
follow-up OIG investigation determined that the employee created a ﬁctitious company
and then had this company bill VA for ﬁctitious goods and services. Payment was made
to the company using the Government purchase card and by direct payments. The
defendant also used her Government purchase card to buy gift cards on the internet and
subsequently used the cards to purchase personal items to include jewelry and clothing.
The employee resigned her position at the initial stage of the investigation. The total fraud
loss to VA was $365,816.




                                                                                          13
Semiannual Report to Congress                               April 1, 2008–September 30, 2008


                          Procurement Practices

VA spends over $15 billion annually for pharmaceuticals, medical and surgical supplies,
prosthetic devices, information technology (IT), construction, and services. OIG
contract audits focus on compliance with Federal and VA acquisition regulations and cost
efﬁciencies, which result in recommendations for improvement. Preaward and postaward
contract reviews have resulted in $62 million in monetary beneﬁts during this reporting
period.

OFFICE OF AUDIT
To improve VA acquisition programs and activities, OIG identiﬁes opportunities to achieve
economy, efﬁciency, and effectiveness for VA national and local acquisitions and supply
chain management. In addition, OIG examines how well major acquisitions are achieving
objectives and desired outcomes. The OIG efforts focus on determining whether the
Department is taking advantage of its full purchasing power when it acquires goods
and services. Auditors examine how well VA is managing and safeguarding resources
and inventories, obtaining economies of scale, and identifying opportunities to employ
best practices.
Controls over Clinical Sharing Agreements Found Ineffective
An OIG audit evaluated whether performance monitoring controls over surgical and
anesthesiology noncompetitive clinical sharing agreements were effective in ensuring that
VHA received the services it paid for. OIG found performance monitoring weaknesses
for all 58 surgical and anesthesiology sharing agreements reviewed at eight VAMCs.
Strengthening controls could save VHA over $59 million over 5 years.
Defense Procurement Requirements Compliance Improves, Issues
Remain
OIG conducted an audit to evaluate the effectiveness of internal controls over purchases
made by VA contracting activities on behalf of the DoD to determine VA compliance with
Defense procurement requirements. Compliance rates have increased since the audit of
FY 2006 procurements; however, instances of noncompliance were present, increasing
the risk that DoD did not receive contracted goods and services on terms that were the
most advantageous to the Government. These deﬁciencies occurred primarily because
contracting ofﬁcers overlooked procurement requirements. OIG expects the contractual
risk associated with these activities to lessen with VA’s intended discontinuation of
purchases for DoD in May 2009.
Purchase Card Controls Effective, Better Documentation Needed
An OIG audit found that VHA purchase card controls were generally effective at preventing
or detecting questionable, improper, or fraudulent medical facility purchases. All
707 transactions reviewed were purchases for goods or services for valid medical facility
needs. For purchases where cardholder documentation was sufﬁcient, we determined
that the purchases were reasonably priced; we were unable to assess purchase price
reasonableness for 126 transactions because cardholder documentation was inadequate.
VHA needed to ensure cardholders maintain documentation supporting purchases and
medical facilities monitor compliance with policies addressing these deﬁciencies. This was
previously recommended in a 2004 audit.

OFFICE OF INVESTIGATIONS
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations,
false claims submitted by contractors, and other fraud relating to VA procurement
activities. In the area of procurement practices, OIG opened seven cases, made four
arrests, and had $37,925 in ﬁnes, restitution, penalties, and civil judgments as well as
savings, efﬁciencies, cost avoidance, and recoveries.
Former Contractor Pleads Guilty to Fraud
The former owner of a company that contracted with VA has agreed to plead guilty to
engaging in mail fraud in connection with the shipment of medical drugs that were not
approved for distribution by the FDA. A joint OIG, FDA, Internal Revenue Service, and



14
April 1, 2008–September 30, 2008                             VA Ofﬁce of Inspector General


Postal Inspection Service investigation determined that the corporation and its employees
concealed from the FDA that the company shipped to hospitals, including VA hospitals, a
drug called “sterile talc powder” and a medical device called “barium sulfate” without ﬁrst
having obtained FDA approval. The former owner admitted that between 1997 and 2000,
he caused his company to ship its “sterile talc powder” drug with improper labeling and
shipped certain lots after the product had failed sterility testing. The company previously
pled guilty and was sentenced in December 2007.
Director Pleads Guilty to Acceptance of Illegal Gratuities
The director of the Hines, IL, Consolidated Mail Outpatient Pharmacy (CMOP) pled
guilty to a criminal information charging him with conspiracy and the acceptance of
illegal gratuities. An OIG investigation determined that the director conspired with a
subordinate VA employee and his spouse to provide temporary pharmacists to the CMOP
at a higher pay rate than employees were previously paid. The director also submitted
false and fraudulent statements to VA ofﬁcials and legal counsel that misrepresented
his subordinate’s true role within the company as well as his activities on behalf of the
company. Additionally, the director accepted approximately $4,500 worth of cash and gifts
as gratuities from another supplier. The director repeatedly used his inﬂuence to award
contracts to this vendor even though another company was awarded a contract to provide
goods to the CMOP. Furthermore, $659,788 in “buy ahead” items were purchased from
the favored company just prior to a new contract taking effect.
University of Kentucky Settles with Government
The University of Kentucky and the United States Attorney’s Ofﬁce for the Eastern
District of Kentucky announced the settlement of a case involving the Lexington VAMC
and the University over contractual and related obligations for the provision of medical
care by University faculty and residents to VAMC patients. The University, as part of its
afﬁliation with the VAMC, was required to provide a substantial number of medical faculty
and residents to support the VAMC facility each year. For certain periods prior to January
2004, evidence indicated that VA had not received all of the services to which it was
entitled. After substantial review and negotiation, the University agreed that it would,
through its support organization, reimburse VA $3 million to resolve the dispute. This
settlement followed extensive investigative work and audit support performed by OIG.

OFFICE OF CONTRACT REVIEW
The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with
VA’s Ofﬁce of Acquisition and Logistics (OA&L) to provide preaward, postaward, and other
requested reviews of vendors’ proposals and contracts. In addition, OCR provides advisory
services to OA&L contracting activities. OCR completed 48 reviews in this reporting
period. The tables that follow provide an overview of OCR performance during this
reporting period.
Preaward Reviews
Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair
and reasonable contract prices and ensuring price reasonableness during the term of the
contract. Preaward reviews identiﬁed $18.8 million in potential cost savings during this
reporting period. In addition to FSS proposals, preaward reviews during this reporting
period included 28 health care provider proposals—accounting for $39.6 million of the
identiﬁed potential savings. Reports resolved through negotiations by contracting ofﬁcers
continue to sustain a high percentage of recommended savings. For 34 reports, the
sustained savings rate was 57 percent.


                                       April 1, 2008–              Summary FY 2008
                                    September 30, 2008
  Preaward Reports Issued                     32                            46

   Potential Cost Savings               $58,441,952                   $81,873,449




                                                                                         15
Semiannual Report to Congress                             April 1, 2008–September 30, 2008


Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions,
including compliance with the Veterans Health Care Act of 1992, P.L. 102-585, for
pharmaceutical products. OCR reviews resulted in VA recovering contract overcharges
totaling over $3.5 million, including $193,219 related to Veterans Health Care Act
compliance with pricing requirements, recalculation of Federal ceiling prices, and
appropriate classiﬁcation of pharmaceutical products. Postaward reviews continue to play
a critical role in the success of VA’s voluntary disclosure process. Of the 15 postaward
reviews performed, 8 involved voluntary disclosures. In one of the eight reviews, OCR
identiﬁed additional funds due.


                                    April 1, 2008–              Summary FY 2008
                                 September 30, 2008
Postaward Reports Issued                   15                           35

     Dollar Recoveries                $3,523,086                   $20,159,719



Special Reports

                                    April 1, 2008–              Summary FY 2008
                                 September 30, 2008
       Special Reports                     1                             3

      Dollar Recoveries                    $0                      $6,011,749


Desktop Computer Contract Found Not to be in VA’s Best Interest
In response to a request from Chairman Harry Mitchell of the Subcommittee on Oversight
and Investigations within the U.S. House of Representatives Committee on Veterans’
Affairs, OIG reviewed the contract awarded by VA to Dell Marketing, L.P., to standardize
personal computers, as well as installation and other services in VA. OIG concluded
that the contract award complied with Federal Acquisition Regulation and was awarded
properly; however, the contract was neither necessary nor in the best interest of VA. The
award approach employed by VA limited competition, did not fully consider the needs of
VA customers, and failed to achieve one of the stated goals of VA-wide standardization.
Moreover, the decision to lease with the option to purchase was based on a faulty pricing
analysis thereby making purchasing a more cost effective option than leasing. OIG also
determined that the contract language was not clear in establishing speciﬁc criteria and
goals to measure Service-Disabled Veteran-Owned Small Business compliance.




16
April 1, 2008–September 30, 2008                               VA Ofﬁce of Inspector General



                        Information Management

OIG oversight work in the IT area reﬂects the critical role IT plays in all VA operations, and
includes audits, criminal investigations, and reviews of IT security policies and procedures.
The loss of signiﬁcant amounts of VA data in May 2006 and January 2007 have highlighted
challenges facing VA information security. VA continues to show increased awareness of
IT security concerns and has completed some efforts aimed at improvement. OIG has
particularly noted VA’s commitment to centralizing IT functions, funding, and staff under
the direction of the Department’s Chief Information Ofﬁcer (CIO). Serious problems
remain, however, and OIG will continue close oversight of extensive VA IT activity.

OFFICE OF AUDIT
OIG performs audits of information management operations and policies, focusing on
adequacy of VA IT security policies and procedures for managing and safeguarding
VA program integrity and patient information security. OIG oversight in IT includes
meeting its statutory requirement to review VA’s compliance with the Federal Information
Security Management Act of 2002 (FISMA), P.L. 107-347, as well as IT security reviews
conducted as part of the CFS audit. These reviews have led OIG to report information
security and security of data and data systems as a major management challenge for VA.
OIG’s audit reports present constructive recommendations needed for VA to improve its IT
management and security.
Information Security Compliance Challenges Remain According to
Independent Assessment
OIG contracted with the independent ﬁrm Deloitte & Touche LLP to conduct the annual
FISMA assessment for FY 2007 to determine the extent to which VA complies with FISMA
requirements. VA has consolidated the vast majority of its IT resources under the CIO,
including a reorganization of functions from the VA Administrations to the Ofﬁce of
Information and Technology. The CIO issued policy and procedural guidance to assist VA
in implementing an effective information security program. In addition, VA data centers
and selected program ofﬁces have taken actions to remediate security control weaknesses
reported in OIG audits. While improvements have been made in information governance,
annual CFS and information security program audits continue to report IT security control
deﬁciencies, which place sensitive information at risk of unauthorized use and disclosure.
VA also needs to better plan and manage its IT capital investments. Overall, VA has made
little progress toward eliminating the material weakness in IT security controls and little
progress in remediating the major deﬁciencies in IT security.




                                                                                           17
Semiannual Report to Congress                               April 1, 2008–September 30, 2008


                   Other Signiﬁcant OIG Activities
CONGRESSIONAL TESTIMONY
AIG for Healthcare Inspections Testiﬁes on Notiﬁcations of Risks in
Clinical Trial
Assistant Inspector General for Healthcare Inspections John D. Daigh, Jr., M.D, testiﬁed at
a July 9, 2008, hearing before the House Committee on Veterans’ Affairs. The topic of the
hearing was the use of Chantix® and its side effects in a VA clinical trial involving patients
with PTSD. Dr. Daigh discussed the results of an OIG review of issues of informed consent,
patient notiﬁcation of potential adverse effects associated with Chantix®, and the tracking
and reporting of adverse events that occurred during the course of the research study.
Dr. Daigh was accompanied by Senior Physician Andrea Buck, M.D., and Randall Snow,
Associate Director, Washington, DC, Regional Ofﬁce, Ofﬁce of Healthcare Inspections.
OIG Testiﬁes on Implementation of Suicide Prevention Initiatives
An OIG Senior Physician testiﬁed before a May 6, 2008, hearing of the House Committee
on Veterans’ Affairs regarding the implementation of suicide prevention initiatives from its
Mental Health Strategic Plan (MHSP). Dr. Michael Shepherd noted that OIG’s May 10, 2007,
report, Healthcare Inspection, Implementing VA’s MHSP Initiatives for Suicide Prevention,
surveyed all VAMCs between December 2006 and February 2007 to assess implementation
of MHSP action items pertaining to suicide prevention. He discussed this report as well
as individual cases that the OIG reviewed and reported on involving veteran suicides and
accompanying mental health issues. He also provided observations of other changes VA
could make to fully implement suicide prevention initiatives from the MHSP.

OTHER VA EMPLOYEE-RELATED INVESTIGATIONS
Seattle VAMC Employee Charged with Embezzlement
A VA employee, who was the former local American Federation of Government Employees
union treasurer at the Seattle VAMC, pled guilty to a criminal information charging her
with making false statements. An OIG and Department of Labor investigation revealed
that the employee used her position to embezzle union funds that she used to purchase a
time share property and electronic equipment. The employee attempted to cover the theft
by falsifying monthly and annual expense reports. The loss to the union is approximately
$120,000.
Former Tomah, WI, VAMC Nursing Assistant Sentenced for Sexual Assault
A former Tomah, WI, VAMC nursing assistant was sentenced to 90 days’ incarceration and
2 years’ probation after pleading no contest to sexual assault and other related charges.
The defendant was also ordered to refrain from employment in any health care facility,
to surrender all nursing-related licenses, and to register as a sex offender. A VA OIG
investigation revealed that the nursing assistant had sexually abused a VA patient at the
VAMC.
Former Salisbury, NC, VAMC Technician Sentenced for Patient Assault
A former Salisbury, NC, VAMC patient care technician was sentenced to 75 days’
incarceration and 12 months’ probation after pleading guilty to assault and battery on a
handicapped person. An OIG and local police investigation determined that the employee
slapped a patient in a wheelchair multiple times and verbalized threats of continued abuse.
The employee, who was employed by VA for 29 years, resigned her position during the
investigation.
Former Asheville, NC, Pharmacist Arrested for Embezzlement
An Asheville, NC, VAMC pharmacist was arrested after an OIG investigation revealed
that he stole approximately 10,000 pills of non-controlled prescription medication from
the VAMC pharmacy during the past 2 to 3 years. As a result of the investigation, the
employee also surrendered his pharmacist’s license to the state and retired from his
position at the VAMC.




18
April 1, 2008–September 30, 2008 	                            VA Ofﬁce of Inspector General


Former Dallas VAMC Employee Sentenced for Sexual Assault of Child
A former Dallas VAMC employee was sentenced to 20 years’ incarceration after being
convicted of aggravated sexual assault of a child. An OIG investigation determined that
the defendant sexually assaulted his girlfriend’s daughter on a number of occasions while
on VAMC property. The defendant is also currently facing additional charges of possession
of child pornography.

Fayetteville, NC, VAMC Employee Arrested for Sexual Offenses
A former Fayetteville, NC, VAMC certiﬁed nursing assistant was arrested for sexual battery,
assault on a handicapped person, and indecent exposure. A joint OIG and VA Police
investigation revealed that the employee forced two VAMC patients to inappropriately
touch him, while allegedly obtaining their blood pressure readings. The employee is also
accused of fondling the victims.

Diploma Fraud Committed by VA Employees
The remaining four of nine defendants pled guilty to conspiracy to commit wire fraud and
mail fraud, while one defendant pled guilty to misprision of a felony, for their role in the
manufacture and the sale of fraudulent educational documents through an online internet
“Diploma Mill.” A multi-agency investigation revealed that some of the approximately
6,000 fraudulent high school and college diplomas were sold to VA employees, who
included the bogus degrees in their VA employment applications and fraudulently
completed internal VA forms attesting to their education level. Some employees also
included the “diploma” information as part of their application for a security clearance. As
a result of the investigation, six VA employees resigned, retired, or received disciplinary
action.
Former VAMC Employee Sentenced for Taking Money to Write-Off
Accounts
A former Washington VAMC employee was sentenced to 36 months’ probation, 100 hours
of community service, and ordered to pay a $1,000 ﬁne after having previously pled guilty
to the receipt of illegal supplementation of salary. A joint OIG and Federal Bureau of
Investigaion (FBI) investigation revealed that the former employee solicited and received
money from VAMC patients to write-off their accounts.
Threats Made Against VA Employees
During this reporting period, the OIG opened 14 criminal investigations resulting from
threats made against VA facilities and employees. Among them were the following:
   • A veteran in Florida was sentenced to 13 months’ incarceration and 3 years’
     probation after having previously pled guilty to making a threat against a Federal
     ofﬁcial. A joint VA OIG and FBI investigation determined that the veteran sent
     an e-mail to his Congressman threatening to kidnap and execute VA ofﬁcials. The
     veteran was subsequently interviewed and stated that he intended on executing VA
     ofﬁcials and blowing up VA Headquarters building with a truck bomb.
  • 	A San Francisco VAMC nursing home employee pled guilty to a criminal information
     charging him with intimidating Government employees. The employee, who is also
     a veteran, made statements indicating that he might buy a machine gun and “kill
     everyone in the nursing home.”
  • 	A veteran was indicted for making threats over interstate commerce and making
     threats with the intent to extort a thing of value after an OIG investigation revealed
     that the veteran made multiple telephone calls threatening the life of a Mountain
     Home, TN, VAMC employee who had revoked his fee basis beneﬁts. The veteran has
     been on home conﬁnement with electronic monitoring since his arrest.




                                                                                          19
Semiannual Report to Congress 	                             April 1, 2008–September 30, 2008


Fugitive Felons Arrested with Assistance of OIG
Veterans and VA employees continue to be identiﬁed and apprehended as a direct result of
the OIG Fugitive Felon Program. To date, 26.4 million felon warrants have been received
from the National Crime Information Center and participating states resulting in 41,843
investigative leads being referred to law enforcement agencies. Over 1,882 fugitives have
been apprehended as a direct result of these leads. Since the inception of the program in
2002, OIG has identiﬁed $576.3 million in estimated overpayments with an estimated cost
avoidance of $658.4 million. Among the arrests made by OIG, VA police, U.S. Marshals,
and local police during this reporting period were the following:
   • 	A veteran wanted for a rape charge in Pennsylvania was arrested at the Orlando
      VAMC by local police with the assistance of OIG and VA Police. The veteran was held
      by local authorities pending extradition.
     • 	A VA employee was arrested at the Houston VAMC by local police ofﬁcers with the
        assistance of VA OIG based on a recently issued warrant for aggravated sexual
        assault.
     • 	Deputy U.S. Marshals arrested a veteran listed on Utah’s Top Ten Most Wanted list for
        a parole violation based on a previous murder conviction. The arrest was made after
        an OIG agent located the veteran in Reno, NV, and provided this information to the
        local U.S. Marshals ofﬁce.

LEGISLATIVE CHANGE
A joint DoD/OIG report found that VA’s inability to provide Home Improvements and
Structural Alterations (HISA) grants to injured service members who had not yet been
discharged from active duty hindered continuation of their treatment during their
transition from DoD to VA health care. These grants support structural alterations to
their home to assure access to the home or to essential sanitary facilities. The report
recommended that VA “should promote enaction of an amendment to section 1717, title
38, United States Code to allow the Secretary of Veterans Affairs to provide...HISA grants
to eligible veterans prior to discharge from military service.” This legislation was passed as
part of P.L. 110-289, thus permitting VA to offer HISA grants to service members prior to
their discharge.




20
April 1, 2008–September 30, 2008                                 VA Ofﬁce of Inspector General



                                         APPENDIX A Funds Recommended for Better Use
  Report
 Number/                                                                                     Questioned
Issue Date                     Report Title                  OIG             Management        Costs
                       DEPARTMENT OF VETERANS AFFAIRS

                         OFFICE OF INSPECTOR GENERAL

                                    REPORTS




   Report                                                          Funds Recommended for
  Number/                                                                Better Use          Questioned
 Issue Date                      Report Title                        OIG        Management     Costs

COMBINED ASSESSMENT PROGRAM REVIEWS 

08-01088-111 Combined Assessment Program Review
04/10/2008   of the Chalmers P. Wylie Independent
             Outpatient Clinic, Columbus, OH
08-00529-112   Combined Assessment Program Review of
04/14/2008     the Ralph H. Johnson VA Medical Center,
               Charleston, SC

07-03172-114   Combined Assessment Program Review of the
04/21/2008     VA Boston Healthcare System, Boston, MA


08-00786-116   Combined Assessment Program Review of the
04/23/2008     VA Palo Alto Health Care System, Palo Alto,
               California

08-00399-131   Combined Assessment Program Review of the
05/29/2008     Battle Creek VA Medical Center, Battle Creek,
               Michigan

08-00401-133   Combined Assessment Program Review of
05/29/2008     the Richard L. Roudebush VA Medical Center,
               Indianapolis, Indiana

08-00001-134   Combined Assessment Program Review of the
05/29/2008     Kansas City VA Medical Center, Kansas City,
               Missouri

08-01089-137   Combined Assessment Program Review of
06/04/2008     the Coatesville VA Medical Center, Coatesville,
               Pennsylvania

08-00819-143   Combined Assessment Program Review of the
06/10/2008     VA Salt Lake City Health Care System, Salt
               Lake City, Utah

07-03173-145   Combined Assessment Program Review of the
06/12/2008     Providence VA Medical Center, Providence,
               Rhode Island

08-01459-174   Combined Assessment Program Review of
07/31/2008     the Alaska VA Healthcare System, Anchorage,
               Alaska



                                                                                      Appendix    •   21
              Semiannual Report to Congress                                 April 1, 2008–September 30, 2008



   Report                                                             Funds Recommended for
                                                                      Funds Recommended for Better Use
  Report
  Number/                                                                   Better Use         Questioned
 Number/
 Issue Date                         Report Title                        OIG        Management Questioned
                                                                                                  Costs
Issue Date                        Report Title                    OIG           Management       Costs
08-01266-176      Combined Assessment Program Review of the
08/01/2008        Oklahoma City VA Medical Center, Oklahoma
                  City, Oklahoma

08-00988-181      Combined Assessment Program Review of the
08/13/2008        VA Southern Oregon Rehabilitation Center and
                  Clinics, White City, Oregon

07-03174-184      Combined Assessment Program Review of
08/13/2008        the VA Connecticut Healthcare System, West
                  Haven, Connecticut

08-00400-190      Combined Assessment Program Review of
08/26/2008        the St. Louis VA Medical Center, St. Louis,
                  Missouri

08-00777-200      Combined Assessment Program Review of the
09/10/2008        Miami VA Healthcare System, Miami, Florida


08-01745-201      Combined Assessment Program Review of the
09/11/2008        VA Northern California Health Care System,
                  Sacramento, California

08-00916-204      Combined Assessment Program Review of
09/15/2008        the Hampton VA Medical Center, Hampton,
                  Virginia

HEALTHCARE INSPECTIONS

07-02369-107      Healthcare Inspection, Medical Device Recall
04/03/2008        Process in Veterans Health Administration
                  Medical Centers

07-03379-110      Healthcare Inspection, Resident Credentialing
04/04/2008        and Supervision, Central Arkansas Veterans
                  Healthcare System, Little Rock, Arkansas

07-02063-109      Healthcare Inspection, Radiology Issues at a
04/08/2008        VA Medical Center


08-00338-115      Healthcare Inspection, Veterans Integrated
04/22/2008        Service Network Oversight of Peer Review
                  Processes

08-01023-119      Follow-Up Healthcare Inspection, VA’s Role
05/01/2008        in Ensuring Services for Operation Enduring
                  Freedom/Operation Iraqi Freedom Veterans
                  after Traumatic Brain Injury Rehabilitation

07-01202-124      Healthcare Inspection, Scopes of Practice for
05/07/2008        Unlicensed Physicians Engaged in Veterans
                  Health Administration Research

07-00060-126      Healthcare Inspection, Evaluation of
05/14/2008        Quality Management in Veterans Health
                  Administration Facilities, Fiscal Year 2007


Appendix      •   22
April 1, 2008–September 30, 2008                                VA Ofﬁce of Inspector General



   Report                                                        Funds Recommended for
                                                                 Funds Recommended for Better Use
  Report
  Number/                                                              Better Use         Questioned
 Number/
 Issue Date                      Report Title                      OIG        Management Questioned
                                                                                             Costs
Issue Date                     Report Title                  OIG           Management       Costs
08-00437-135   Healthcare Inspection, Colonoscopy
06/03/2008     Management, El Paso VA Health Care System,
               El Paso, Texas

08-01299-144   Healthcare Inspection, Clinic Appointment
06/11/2008     Scheduling Issues, VA San Diego Healthcare
               System, San Diego, California

08-01380-154   Healthcare Inspection, Alleged Patient Neglect
06/27/2008     During a Magnetic Resonance Imaging Exam,
               Michael E. DeBakey VA Medical Center,
               Houston, Texas

07-03359-156   Healthcare Inspection, Stafﬁng, Quality of
07/07/2008     Care, and Access Issues, Central Alabama
               Veterans Health Care System, Tuskegee,
               Alabama

08-01383-161   Healthcare Inspection, Emergency Care,
07/10/2008     Patient Discharges, and Stafﬁng Issues,
               Central Alabama Veterans Health Care System,
               Tuskegee, Alabama

08-01777-163   Healthcare Inspection, Alleged Medication
07/10/2008     Overdose and Poor Communication, VA Boston
               Healthcare System, Boston, Massachusetts

08-01359-165   Healthcare Inspection, Quality of Care,
07/11/2008     Courtesy, and Communication Issues, VA
               Medical Center, St. Louis, Missouri

08-01484-168   Healthcare Inspection, Credentialing and
07/14/2008     Privileging Issues, VA Medical Center,
               Fayetteville, North Carolina

08-01369-172   Healthcare Inspection, Quality of Care Issues,
07/25/2008     VA Gulf Coast Health Care System, Biloxi,
               Mississippi

08-01105-171   Healthcare Inspection, Alleged Research
07/29/2008     Funding Irregularities at the Central Texas
               Veterans Health Care System, Temple, Texas

08-01130-173   Healthcare Inspection, Out-of-Operating
07/29/2008     Room Airway Management in Veterans Health
               Administration Medical Centers

08-01993-177   Healthcare Inspection, Alleged Inpatient
07/31/2008     Care Issues, Tennessee Valley Healthcare
               System, Alvin C. York Campus, Murfreesboro,
               Tennessee

07-03042-182   Healthcare Inspection, Human Subjects
08/06/2008     Protections Violations at the Central Arkansas
               Veterans Healthcare System, Little Rock,
               Arkansas




                                                                                     Appendix   •   23
           Semiannual Report to Congress                                   April 1, 2008–September 30, 2008


    Report                                                          Funds Recommended for
   Number/                                                                Better Use
                                                                    Funds Recommended          Questioned
                                                                                        for Better Use
   Report
  Issue Date                      Report Title                        OIG        Management        Costs
  Number/                                                                                     Questioned
 Issue Date                    Report Title                     OIG           Management         Costs
07-01922-180    Healthcare Inspection, Oversight of the
08/12/2008      Community Nursing Home Program, VA North
                Texas Health Care System, Dallas, Texas

08-01377-185    Healthcare Inspection, Quality of Care of Two
08/14/2008      Deceased West Virginia Veterans

08-01297-187    Healthcare Inspection, Post-Traumatic Stress
08/26/2008      Disorder Program Issues, VA San Diego
                Healthcare System, San Diego, California

08-02346-191    Healthcare Inspection, Human Subjects
08/28/2008      Protections in One Research Protocol, VA
                Medical Center, Washington, DC

08-01989-196    Healthcare Inspection, Alleged Physician
09/09/2008      Privileging Issues, Sioux Falls VA Medical
                Center, Sioux Falls, South Dakota

07-02599-199    Healthcare Inspection, Quality of Care Issues,
09/10/2008      Huntington VA Medical Center, Huntington,
                West Virginia

06-02459-209    Healthcare Inspection, Prevention of Venous
09/26/2008      Thromboembolim in VA Hospitals

JOINT DoD/VA HEALTHCARE INSPECTIONS
06-02857-127    DoD/VA Care Transition Process for Service
06/12/2008      Members Injured in OIF/OEF

INTERNAL AUDITS
07-00564-121 Audit of Veterans Health Administration’s
05/05/2008   Oversight of Nonproﬁt Research and Education
             Corporations

07-03505-129    Audit of Alleged Manipulation of Waiting Times
05/19/2008      in Veterans Integrated Service Network 3

07-00608-162    Fiscal Year 2007 Federal Information Security
07/09/2008      Management Act Assessment

06-03552-169    Audit of Veterans Beneﬁts Administration
07/17/2008      Transition Assistance for Operations Enduring
                and Iraqi Freedom Service Members and
                Veterans

08-01559-193    Audit of the Impact of the Veterans Beneﬁts
09/05/2008      Administration’s Special Hiring Initiative

07-02796-203    Audit of Veterans Health Administration’s             $799,997      $799,997
09/11/2008      Government Purchase Card Practices

08-00456-207    Audit of FY 2007 VA Purchases Made on Behalf
09/24/2008      of the Department of Defense




Appendix    •   24
April 1, 2008–September 30, 2008                                  VA Ofﬁce of Inspector General



   Report                                                         Funds Recommended for
                                                                  Funds Recommended for Better Use
  Report
  Number/                                                               Better Use         Questioned
 Number/
 Issue Date                      Report Title                       OIG        Management Questioned
                                                                                              Costs
Issue Date                     Report Title                   OIG           Management       Costs
08-00477-211   Audit of Veterans Health Administration             $59,800,000   $59,800,000      $95,666
09/29/2008     Noncompetitive Clinical Sharing Agreements
08-00244-213   Audit of Procurements Using Prior-Year Funds                                    $16,477,619
09/30/2008     To Maintain VA Healthcare Facilities
ADMINISTRATIVE INVESTIGATIONS
07-00649-150   Administrative Investigation, Alleged Conﬂict of
06/19/2008     Interest, Veterans Beneﬁts Administration, VA
               Central Ofﬁce, Washington, DC

07-02623-164   Administrative Investigation, Failure to Satisfy
07/10/2008     Financial Obligations, Battle Creek VAMC,
               Battle Creek, Michigan

08-01383-205   Administrative Investigation, Preferential
09/23/2008     Treatment, Improper Travel Vouchers, Misuse
               of Resources, and Interference with an OIG
               Investigation, Central Alabama Veterans Health
               Care System


TOTAL:         58 Reports                                         $60,599,997 $60,599,997 $16,573,285



CONTRACT REVIEW SPECIAL REPORT
08-02213-138   Review of Enterprise - Wide PC Lease Awarded
06/04/2008     to Dell Marketing, L.P.




                                                                                       Appendix    •   25
             Semiannual Report to Congress                              April 1, 2008–September 30, 2008



                                                  APPENDIX B

       STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to complete
ﬁnal action on each OIG report recommendation within 12 months after the report is ﬁnalized. OIG
is required to identify unimplemented recommendations in its Semiannual Report to Congress until
the ﬁnal action is completed. This appendix summarizes the status of OIG unimplemented reports
and recommendations. The following chart lists the total number of unimplemented OIG reports and
recommendations by organization. It also provides the total number of unimplemented reports and
recommendations issued over 1 year ago (September 30, 2007, and earlier). The FY 2007 FISMA
audit, which contains unimplemented OIG recommendations from previous years’ FISMA audits, is
included in the total of unimplemented reports and recommendations, but because it was issued after
September 30, 2007, it is not included in the reports that are over 1 year old on the right side of the
table. Some reports are counted more than once because they have actions at more than one ofﬁce.
Of the reports open less than 1 year, one report has actions at two ofﬁces. Of the reports open more
than 1 year, one report has actions at two ofﬁces.




                    Unimplemented OIG Reports and Recommendations

     VA                                                                 Issued 9/30/07
                               Total
    Ofﬁce                                                                  and Earlier

                   Reports          Recommendations              Reports          Recommendations

     VHA               68                    235                   10                     20

      VBA              4                      9                     0                      0

     OI&T1             3                     52                     2                      2

      OM2              1                      3                     0                      0




1
    Ofﬁce of Information and Technology (OI&T)
2
    Ofﬁce of Management (OM)




Appendix      •   26
   April 1, 2008–September 30, 2008                                        VA Ofﬁce of Inspector General




                              Reports Unimplemented for Over 1 Year


Report Number     Date of                     Title                     Responsible           Open           Monetary
                   Issue                                               Organization(s)   Recommendations      Impact

                                 Audit of the Veterans Health
04-02887-169 07/08/2005          Administration’s Outpatient                VHA               5 of 8
                                   Scheduling Procedures
                               Audit of VA Acquisition Practices
04-02330-212 09/30/2005       for the National Vietnam Veterans             VHA               1 of 3
                                      Longitudinal Study
                               Review of Access to Care in the
05-03028-145 05/17/2006                                                     VHA               2 of 9
                               Veterans Health Administration
                             Review of Issues Related to the Loss
06-02238-163 07/11/2006        of VA Information Involving the             OI&T               1 of 6
                               Identity of Millions of Veterans
                               Healthcare Inspection, Evaluation
                              of Quality Management in Veterans
05-00081-36     12/08/2006                                                  VHA               1 of 3
                             Health Administration Facilities Fiscal
                                     Years 2004 and 2005
                             Healthcare Inspection, Implementing
06-03706-126 05/10/2007       VHA’s Mental Health Strategic Plan            VHA               2 of 6
                               Initiatives for Suicide Prevention
                             Administrative Investigation, Loss of
07-01083-157 06/29/2007       VA Information VA Medical Center           VHA/OI&T            2 of 18
                                       Birmingham, AL
                              Healthcare Inspection, Follow-Up
                             Evaluation of the W.G. (Bill) Hefner
07-01796-181 08/02/2007                                                     VHA               1 of 2
                             VA Medical Center Salisbury, North
                                           Carolina
                               Audit of the Veterans Health
07-00616-199 09/10/2007      Administration’s Outpatient Waiting            VHA               4 of 5
                                            Times
                              Healthcare Inspection, Comparison
                              of VA and University Afﬁliated IRB
06-00980-217 09/28/2007                                                     VHA               1 of 3
                               Compliance with VHA Handbook
                                           1200.5
                                Audit of the Acquisition and
06-03677-221 09/28/2007       Management of Selected Surgical               VHA               2 of 7       $21,948,162
                                      Device Implants

TOTALS                                                                       11                22          $21,948,162




Note: Although the FY 2007 FISMA audit contains 16 unimplemented OIG recommendations from previous
years’ FISMA audits, it is not included in the table above because the report was issued after September 30,
2007.




                                                                                                       Appendix   •      27
           Semiannual Report to Congress                                April 1, 2008–September 30, 2008



                                              APPENDIX C

           INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
General Act Amendments of 1988, P.L. 100-504, and the Omnibus Consolidated Appropriations Act of
1997, P.L. 104-208.
The Federal Financial Management Improvement Act of 1996, P.L. 104-208, (FFMIA) requires OIG to
report instances and reasons when VA has not met the intermediate target dates established in the
VA remediation plan to bring VA’s ﬁnancial management system into substantial compliance with the
Act. The FY 2007 audit of VA’s consolidated ﬁnancial statements reported that three of four identiﬁed
material weaknesses indicated VA’s ﬁnancial management systems did not substantially comply with
Federal ﬁnancial management systems requirements. Two of the material weaknesses were repeated
from the prior year and one is new. VA has not fully developed all parts of its remediation plan in
response to the FY 2007 audit, but remedial actions are underway.


     IG Act                               Reporting
                                                                                     Status
   References                           Requirements
                       Review of legislative, regulatory, and                 Commented on
 Section 4 (a) (2)
                       administrative proposals                               340 items

 Section 5 (a) (1)     Signiﬁcant problems, abuses, and deﬁciencies           See pages 7-20

                       Recommendations with respect to signiﬁcant
 Section 5 (a) (2)                                                            See pages 7-20
                       problems, abuses, and deﬁciencies
                       Prior signiﬁcant recommendations on which
 Section 5 (a) (3)                                                            See pages 26-27
                       corrective action has not been completed
                       Matters referred to prosecutive authorities and
 Section 5 (a) (4)                                                            See pages 7-20
                       resulting prosecutions and convictions
                       Summary of instances where information was
 Section 5 (a) (5)                                                            None
                       refused
                       List of audit reports by subject matter,
 Section 5 (a) (6)     showing dollar value of questioned costs and           See pages 21-25
                       recommendations that funds be put to better use
 Section 5 (a) (7)     Summary of each particularly signiﬁcant report         See pages 7-20
                       Statistical tables showing number of reports and
 Section 5 (a) (8)     dollar value of questioned costs for unresolved,       See page 29
                       issued, and resolved reports
                       Statistical tables showing number of reports and
                       dollar value of recommendations that funds be put
 Section 5 (a) (9)                                                            See page 29
                       to better use for unresolved, issued, and resolved
                       reports
                       Summary of each audit report issued before
 Section 5 (a) (10)    this reporting period for which no management          See page 29
                       decision was made by end of reporting period
 Section 5 (a) (11)    Signiﬁcant revised management decisions                None
                       Signiﬁcant management decisions with which the
 Section 5 (a) (12)                                                           None
                       Inspector General is in disagreement

 Section 5 (a) (13)    Information described under section 5(b) of FFMIA      See top of this page




Appendix    •   28
April 1, 2008–September 30, 2008                      VA Ofﬁce of Inspector General


Table 1: Resolution Status of Reports with Questioned Costs

                                                                             Dollar Value
                    RESOLUTION STATUS                          Number
                                                                             (In Millions)
 No management decision by 9/30/08                                 0                       $0
 Issued during reporting period                                    2                  $16.6
   Total inventory this period                                     2                  $16.6
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                        2                  $16.6
 Allowed costs (not agreed to by management)                       0                       $0
   Total management decisions this reporting period                2                  $16.6
   Total carried over to next period                               0                       $0




Table 2: Resolution Status of Reports with Recommended Funds To Be Put To
Better Use By Management
                                                                             Dollar Value
                    RESOLUTION STATUS                          Number
                                                                             (In Millions)
 No management decision by 9/30/08                                 0                     $0
 Issued during reporting period                                    2                  $60.6
   Total inventory this period                                     2                 $60.6
 Management decisions during the reporting period
 Agreed to by management                                           2                  $60.6
 Not agreed to by management                                       0                     $0
   Total management decisions this reporting period                2                  $60.6
   Total carried over to next period                               0                       $0




                                                                           Appendix    •     29
           Semiannual Report to Congress                             April 1, 2008–September 30, 2008



                                             APPENDIX D
                GOVERNMENT CONTRACTOR AUDIT FINDINGS
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each 

Inspector General appointed under the Inspector General Act of 1978 to submit an annex on ﬁnal, 

completed contract audit reports issued to the contracting activity that contain signiﬁcant audit 

ﬁndings—unsupported, questioned, or disallowed costs in an amount in excess of $10 million, or other 

signiﬁcant ﬁndings—as part of the Semiannual Report to Congress. During this reporting period, 

OIG issued no contract review reports under this requirement.





Appendix    •   30
April 1, 2008–September 30, 2008   VA Ofﬁce of Inspector General




                                                                   31
Copies of this report are available to the public. Written requests should be sent to:

Ofﬁce of the Inspector General (53A)
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

The report is also available on our website:
http://www.va.gov/oig/publications/semiann/reports.asp
For further information regarding VA OIG, you may call 202-461-4720.




Cover photo courtesy Department of Defense
                                                                      VA OIG Semiannual Report to Congress
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:            (800) 488-8244
                         (800) 488-VAIG
To FAX:                  (202) 565-7936

To Send
Correspondence:          Department of Veterans Affairs
                         Inspector General Hotline (53E)
                         P.O. Box 50410
                         Washington, DC 20091-0410

Internet Homepage:       http://www.va.gov/oig/contacts/hotline.asp

E-mail Address:          vaoighotline@va.gov




                                                                      September 30, 2008 - Vol. 60



                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     April 1, 2008 - September 30, 2008
